<html>
<title> - [H.A.S.C. No. 112-143]WITHDRAWAL FROM AFGHANISTAN: HISTORICAL LESSONS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







                         [H.A.S.C. No. 112-143]

                      WITHDRAWAL FROM AFGHANISTAN:

                           HISTORICAL LESSONS

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 18, 2012






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                      U.S. GOVERNMENT PRINTING OFFICE

  75-633                   WASHINGTON : 2012
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6304130c23001610170b060f134d000c0e4d">[email&#160;protected]</a>  




              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                    ROB WITTMAN, Virginia, Chairman
K. MICHAEL CONAWAY, Texas            JIM COOPER, Tennessee
MO BROOKS, Alabama                   ROBERT ANDREWS, New Jersey
TODD YOUNG, Indiana                  MARK S. CRITZ, Pennsylvania
TOM ROONEY, Florida                  COLLEEN HANABUSA, Hawaii
MIKE COFFMAN, Colorado
            Christopher J. Bright, Professional Staff Member
                 Paul Lewis, Professional Staff Member
                     Arthur Milikh, Staff Assistant











                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Wednesday, July 18, 2012, Withdrawal from Afghanistan: Historical 
  Lessons........................................................     1

Appendix:

Wednesday, July 18, 2012.........................................    27
                              ----------                              

                        WEDNESDAY, JULY 18, 2012

            WITHDRAWAL FROM AFGHANISTAN: HISTORICAL LESSONS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Andrews, Hon. Robert, a Representative from New Jersey, 
  Subcommittee on Oversight and Investigations...................     2
Wittman, Hon. Rob, a Representative from Virginia, Chairman, 
  Subcommittee on Oversight and Investigations...................     1

                               WITNESSES

Collins, COL Joseph J., USA (Ret.), Ph.D., Professor of National 
  Security Strategy, National War College, Author of 
  ``Understanding War in Afghanistan''...........................     6
Moyar, Mark, Ph.D., Historian, Author of ``Triumph Forsaken: The 
  Vietnam War, 1954-1965''.......................................     4
Oliker, Olga, Director, International and Security Policy 
  Department, RAND Corporation...................................     7
Sorley, LTC Lewis, USA (RET.), Ph.D., Historian, Author of ``A 
  Better War: The Unexamined Victories and Final Tragedy of 
  America's Last Years in Vietnam''..............................     3

                                APPENDIX

Prepared Statements:

    Collins, COL Joseph J........................................    63
    Moyar, Mark..................................................    50
    Oliker, Olga.................................................    74
    Sorley, LTC Lewis............................................    32
    Wittman, Hon. Rob............................................    31

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
 
            WITHDRAWAL FROM AFGHANISTAN: HISTORICAL LESSONS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Oversight and Investigations,
                          Washington, DC, Wednesday, July 18, 2012.
    The subcommittee met, pursuant to call, at 3:04 p.m. in 
room 2118, Rayburn House Office Building, Hon. Rob Wittman 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE FROM 
       VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Mr. Wittman. Ladies and gentlemen, I want to welcome you to 
the Subcommittee on Oversight and Investigations for the House 
Armed Services Committee. And we are now in session.
    I want to thank our witnesses for joining us today, and we 
appreciate your expertise and your perspective on what we 
believe is an important issue. And we have assembled you today 
specifically to provide testimony about historical examples of 
indigenous forces assuming security responsibility from allied 
military units.
    In considering the U.S. withdrawal in Vietnam, the Soviet 
withdrawal from Afghanistan, and the U.S. redeployment from 
Iraq, the subcommittee will explore lessons applicable to the 
current plans to withdraw combat forces from Afghanistan and 
place the Afghan National Security Forces in the lead by 2014. 
We recognize, of course, that past events do not offer precise 
analogies to the current situation; nonetheless, historical 
experiences can be illuminating when considering contemporary 
policy.
    Our panel today includes Dr. Lewis ``Bob'' Sorley, an 
historian and author of several books, including A Better War: 
The Unexamined Victories and Final Tragedy of America's Last 
Years in Vietnam; Dr. Mark Moyar, also an historian and author 
of several books, including Triumph Forsaken: The Vietnam War, 
1954-1965; Dr. Joseph Collins, professor of national security 
strategy, National War College; and Ms. Olga Oliker, director, 
International and Security Policy Department for the RAND 
Corporation.
    Ladies and gentlemen, thank you so much for your 
participation today and for taking time out of your busy 
schedules. We look forward to your testimony.
    And I note that all Members have received your full written 
testimony, and this will be entered into the record as it is 
submitted. Therefore, this afternoon, I would ask that your 
comments and highlights be limited to significant points and be 
limited to 5 minutes. And this will allow our Members greater 
time to pose questions and ask for additional information.
    With that, I will turn to Mr. Andrews, the ranking member, 
for his opening statement.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 31.]

  STATEMENT OF HON. ROBERT ANDREWS, A REPRESENTATIVE FROM NEW 
      JERSEY, SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

    Mr. Andrews. Well, I am acting ranking member. Mr. Cooper 
has a bout with laryngitis. He has lost his voice, which is a 
tragedy of significant proportions for the Nation. So we are 
hoping that he recovers from it soon. And he thanks the 
witnesses, as well, for their preparation.
    This is a very practical hearing this afternoon, and I want 
to commend the chairman for it. I think if someone took a 
superficial look at this hearing, they would say, well, this is 
interesting. We are bringing together four scholars who can 
talk about historic perspectives on various situations, and 
that would be sort of interesting. But this is literally a 
matter of life and death for our country and for our service 
members as we go about what we hope will be an orderly and 
rational withdrawal from Afghanistan.
    So I commend the chairman for framing this issue in a way 
that we can learn, in our oversight role, ways that we can 
successfully achieve that goal and minimize injury and the loss 
of life to our service members and to innocent people in 
Afghanistan. It is a very important issue.
    And, you know, the bromide is that those who ignore history 
are doomed to repeat it. Well, those who oversimplify history 
are likely to make mistakes, as well. And I think it is 
excellent that we have a panel of experts who understand well 
the legal and historical, geographic, cultural, religious 
nuances and differences among the situations that you are all 
expert in and the one that our country confronts here today.
    So thank you, Mr. Chairman, for a very practical and timely 
chance for the committee members to learn how to do our 
oversight function.
    Mr. Wittman. Very good. Thank you, Mr. Andrews. We 
appreciate that. And we will certainly miss Mr. Cooper and wish 
him a speedy recovery. And we will make sure that his 
questions, while maybe not asked verbally, will be answered----
    Mr. Andrews. Telepathically.
    Mr. Wittman [continuing]. In written form. That is right, 
telepathically. That would work, too. I will leave it up to our 
witnesses to initiate that form of communication.
    Well, we are going to start with our panel.
    And, Dr. Sorley, we will start with you and then proceed 
with the other panelists to receive your testimony. Thank you, 
and welcome.

 STATEMENT OF LTC LEWIS SORLEY, USA (RET.), PH.D., HISTORIAN, 
 AUTHOR OF ``A BETTER WAR: THE UNEXAMINED VICTORIES AND FINAL 
          TRAGEDY OF AMERICA'S LAST YEARS IN VIETNAM''

    Dr. Sorley. Thank you, Mr. Chairman.
    My comments have to do with withdrawal of American forces 
from Vietnam while the fighting there continued.
    During the buildup phase of that war, 1965 to 1968, the 
United States had deployed increasing numbers of ground combat 
personnel, totaling 543,400 soldiers and marines at the high-
water mark. In June 1968, General Creighton Abrams succeeded 
General William Westmoreland as commander of U.S. forces in 
Vietnam. Beginning in July 1965, the forces under his command 
were progressively reduced, with the final withdrawals 
occurring in late March 1973 in accordance with provisions of 
the Paris Accords, supposedly ending the war.
    The Nixon administration came into office in January 1969, 
apparently with the expectation of being able to reach a 
negotiated settlement of the Vietnam War within a few months. 
When this proved unattainable, President Nixon decided on 
incremental unilateral withdrawal of U.S. forces, coupling that 
with a program of increases and improvements in South 
Vietnamese military forces that was called ``Vietnamization.''
    In June 1969, President Nixon announced the first 
withdrawal increment, consisting of 25,000 U.S. troops, to be 
taken out during July and August 1969. General Abrams said to 
his principal planner for the withdrawal, ``It is going to 
happen whether you and I want it to happen or not. I do not 
want to be an obstructionist, but I do want it to be done in a 
way that does not completely bug out on the Vietnamese and 
leave them flat and unable to defend themselves.''
    Early on, the field command proposed three criteria to be 
applied in making decisions on the size and timing of 
successive withdrawal increments. These were: improvements in 
South Vietnamese military capability, the level of battlefield 
activity, and progress in peace negotiations.
    During the planning for the first withdrawal increment, 
General Westmoreland, by then serving in Washington as Army 
Chief of Staff, precipitated a crisis by insisting that 
withdrawals consist entirely of those troops who had been in 
Vietnam the longest, claiming that was the fair thing to do. 
Abrams strongly objected. He favored redeploying units as 
units, sending them home intact with the people currently 
assigned. The Westmoreland approach meant there would have to 
be wholesale transfers of people in and out of redeploying 
units to repopulate them with only the longest-serving people. 
This had a terrible effect on unit cohesion of those units 
remaining in Vietnam, and General Westmoreland was able to 
prevail.
    As things worked out, domestic political considerations 
became overriding, and the withdrawal process took on a life of 
its own. President Nixon apparently decided that to keep the 
antiwar faction relatively quiet, it was necessary to always 
have a next withdrawal increment announced and scheduled, 
regardless of the situation in Vietnam. A second increment of 
40,500 was withdrawn during September-December 1969, and that 
process continued on a regular basis through 1970, 1971, and 
1972, leaving only a small residue, who came out in late March 
1973 in accordance with terms of the Paris Accords.
    What those data show is a steady and reasonably even 
downward slope spread over a period of more than 3 years. 
During that time, extraordinary efforts were being made to 
improve South Vietnamese forces and governmental mechanisms 
across the board.
    Examination of the Vietnam experience suggests, at least 
from the standpoint of the field commander, that a viable 
withdrawal of forces from an active combat theater would 
include these characteristics: The field command is permitted 
to determine the composition of withdrawal elements. Criteria 
for decisions about the size and timing of successive 
withdrawal increments are in place and consistently applied. 
Those criteria typically include: progress in developing 
indigenous forces, progress in peace negotiations, and 
consideration of the level of enemy activity. And, finally, 
withdrawing elements are constituted by unit, not individuals.
    Thank you for the opportunity to offer these observations 
on the Vietnam experience.
    [The prepared statement of Dr. Sorley can be found in the 
Appendix on page 32.]
    Mr. Wittman. Thank you, Dr. Sorley. Perfect timing.
    Dr. Moyar.

STATEMENT OF MARK MOYAR, PH.D., HISTORIAN, AUTHOR OF ``TRIUMPH 
             FORSAKEN: THE VIETNAM WAR, 1954-1965''

    Dr. Moyar. Thank you, Mr. Chairman.
    I am going to also talk about Vietnam from a bit of a 
different angle. I am going to look at the security forces of 
the South Vietnamese Government and then also compare those to 
the situation in Afghanistan today to hopefully help illuminate 
some issues.
    In my view, from studying Vietnam and a lot of other 
insurgencies, the biggest challenge you face in trying to 
develop host-nation security forces that can survive over the 
long haul and as American troops withdraw is the quality of the 
leadership in those organizations.
    One of the most important factors and one that I think 
unfortunately gets neglected a lot is the question of time, 
because I have found that you need, typically, at least 10 
years to develop the officer corps for these organizations in 
order to fill key midlevel positions such as battalion 
commander, district police chief.
    In the case of South Vietnam, the government benefited from 
nearly 3 decades of uninterrupted leadership development, first 
under the French and then under the Americans. They had more 
difficulty when it came to putting the right officer into the 
right command position because of some internal military 
politics that resulted in a number of coups. That did subside 
toward the end of the war.
    I do think the South Vietnamese leadership did get better. 
It contributed to the ultimate defeat of the Vietcong 
insurgency in the early 1970s, which turned the war essentially 
into a conventional conflict between North Vietnam and South 
Vietnam. There was a big conventional offensive in 1972 that, a 
lot of times, historians don't talk about, but 14 North 
Vietnamese divisions invaded South Vietnam. And South Vietnam 
was able to defeat that with U.S. advisers and air support but 
not U.S. ground forces.
    In 1975, there is another massive North Vietnamese 
invasion, although this time there is no U.S. airpower, no U.S. 
advisers. Most importantly, the U.S. did not provide enough 
fuel or ammunition to the South Vietnamese forces to be able to 
protect the long western flank of their country. And this was a 
result of a decision by the U.S. Congress in the previous year 
to slash aid to a level below what the Defense Attache Office 
had said was the minimum required. So the South Vietnamese did 
fight well but were simply overcome by the enemy's superior 
mobility and firepower.
    Afghanistan's history in developing leaders is quite 
different. Between the fall of the Najibullah regime in 1992 
and the fall of the Taliban in 2001, there was almost no 
concerted development of leadership. And after the Taliban 
fell, it took until 2004 to develop a viable Afghan National 
Army leader development, and not really until 2010 did the 
police side get its act together. So when the Afghan Government 
takes over security at the end of 2014, the Afghan Army will 
have 10 years, roughly, of viable leader development, so 
getting to the point where they need to be. The Afghan police, 
on the other hand, are only going to have about 5 years, and I 
think they certainly will not be at the same level of 
performance.
    We have also seen in Afghanistan, even more so than in 
South Vietnam, the influence of nonmerit factors in who is put 
in positions of authority. Family, tribe, ethnicity, pure 
bribery has corrupted appointments. And this has a great deal 
to do with the Afghan president, and so the selection of the 
next Afghan president will be crucial for that reason, among 
various others.
    You know, Afghanistan's insurgents aren't going to be able 
to launch a huge offensive like the North Vietnamese did, but I 
don't think they need to. If you look, from 2005 to 2009 the 
Taliban were not very strong, but they were able to capture 
large amounts of territory. And if we see a return of this in 
2015, I do think there is a real chance that the country will 
split ethnically, that we will see an ethnic civil war. We will 
probably see the Taliban, the Haqqani Network move into the 
south and the east, paving the way for a return of Al Qaeda and 
also undermining our ability to operate in Pakistan.
    Also, I think among the most disturbing parallels between 
Vietnam and Afghanistan is the reduction in our assistance to 
the host-nation forces because of war-weariness and apathy. As 
you may be aware, the Administration is planning to cut funding 
from the current level of $6 billion for the Afghan security 
forces to $4 billion after 2014 and to shrink the size of those 
forces from 325,000 to 230,000, which I think is quite 
perilous.
    I would say, the last thing, just in terms of a U.S. 
presence, I do think a U.S. presence will be required, and a 
pretty robust presence, bigger than the 5,000 to 10,000 we hear 
now, in order to be able to provide a viable combat capability 
and to deter the enemy.
    Thank you.
    [The prepared statement of Dr. Moyar can be found in the 
Appendix on page 50.]
    Mr. Wittman. Thank you, Dr. Moyar.
    Dr. Collins.

    STATEMENT OF COL JOSEPH J. COLLINS, USA (RET.), PH.D., 
PROFESSOR OF NATIONAL SECURITY STRATEGY, NATIONAL WAR COLLEGE, 
         AUTHOR OF ``UNDERSTANDING WAR IN AFGHANISTAN''

    Dr. Collins. Thank you, Mr. Chairman.
    I am going to talk about Afghanistan and the Soviets in 
Afghanistan, but in 2011, the summer of 2011, this summer, I 
spent some time in Afghanistan with the NATO [North Atlantic 
Treaty Organization] training mission and working on the issue 
of transition. And I would be happy to answer questions either 
about the Soviet Union or about things that are going on there 
in Afghanistan.
    About the Soviet Union: The Soviet Union fought a 
disastrous war in Afghanistan, but its invasion and the 
withdrawal were effective and successful operations. In 1985, 
Mikhail Gorbachev became the Soviet leader and soon decided to 
end the war, which he said had become a bleeding wound. He 
replaced the ineffective Afghan leadership. He effectively used 
diplomacy and had the Soviet military help the Afghans develop 
an effective transition withdrawal and force development plan.
    The key elements of the Soviet transition were: first, a 
clear transition plan with military, foreign aid, and diplomacy 
generally pulling in the same direction; secondly, a 
reinvigorated host government with effective, if not at times 
brutal, leadership; third, improved relations between Kabul, 
local power centers, and tribal militias--this, by the way, 
accelerated markedly after the Soviet Union left; and, fourth, 
a stronger and more cohesive Afghan Government fighting force; 
and, fifth, up to the demise of the Soviet Union in December 
1991, a reliable and generous source of foreign aid.
    The Najibullah regime lasted for 3 years after the Soviet 
withdrawal--some months longer than the Saigon government, by 
the way. It folded in 1992, a few months after the Soviet Union 
itself disappeared. After the departure of Soviet troops, 
Afghanistan went from a war against an invader to a civil war, 
which came to a decisive, but not final, phase when the radical 
Taliban seized Kabul in 1996.
    Soon after the Soviet withdrawal, the United States left 
the fight, well before the war ended. U.S. neglect after 1991 
left the management of the conflict solely in the hands of 
Pakistan. This facilitated the advent of the Taliban, the 
development of an Al Qaeda position of strength in Afghanistan, 
and, ultimately, the 9/11 attacks on the United States.
    Fighting alone, the Soviet Union's enemy in Afghanistan was 
the whole nation, defended by over 170,000 mujahideen. Today, 
the United States and its 50--5-0--coalition partners in 2012 
are fighting against an extremist religious minority group of 
no more than 25,000 hardcore adherents whose national approval 
ratings rarely poll higher than 10 percent.
    The Soviet Union fought to secure an authoritarian state 
with an alien ideology. The United States and its allies are 
trying to build a stable state with democratic aspirations, 
where people have some basic freedoms and a claim on 
prosperity.
    In its beleaguered state, the Karzai regime has much more 
legitimacy than the Afghan communists ever did. Beyond the 
locale of the conflict, the importance of the sanctuaries, and 
some tactical dynamics, there are not a lot of similarities 
between the essence--I say again, the essence of the Soviet 
Union's war and the war being fought by ISAF [International 
Security Assistance Force] and the 50 nations in Afghanistan.
    In the end, the Soviet experience in Afghanistan cost 
14,000 Soviet and a million Afghan lives. It created a huge 
Afghan diaspora. It left tens of millions of mines on the 
ground in Afghanistan and hastened the end of the Soviet Union. 
It did not create a better peace; in fact, it did not create 
peace at all.
    The United States has the potential to do much better but 
only if it perseveres in the pursuit of a stable Afghanistan 
and our interests in the region. We must not again leave the 
field before the game is over.
    Thank you, sir.
    [The prepared statement of Dr. Collins can be found in the 
Appendix on page 63.]
    Mr. Wittman. Thank you, Dr. Collins. We appreciate your 
testimony.
    Ms. Oliker.

STATEMENT OF OLGA OLIKER, DIRECTOR, INTERNATIONAL AND SECURITY 
              POLICY DEPARTMENT, RAND CORPORATION

    Ms. Oliker. Thank you very much.
    I want to highlight five points from my testimony this 
afternoon, though I am happy to answer questions about any 
component of it.
    When you look at the experience in Iraq and the experience 
in Afghanistan, the first thing you want to keep in mind is 
that Iraq and Afghanistan are very different places. It is true 
that, on the one hand, both are multiethnic, they are 
predominantly Muslim, weak governance, high corruption, and 
certainly both have faced insurgencies. But the fact is that 
Iraq is an industrialized society and Afghanistan is not. A 
baby born in Iraq today can expect to live to age 70; one born 
in Afghanistan can barely expect to live to age 50. In 2000, 
before the September 11th attacks, almost 80 percent of Iraqis 
were literate; fewer than 30 percent of Afghans were.
    Afghanistan is in such bad shape in part because it has 
been wrecked by decades of conflict which has spread throughout 
the country. Iraq fought a long and bloody war with Iran, but 
it was limited geographically and ended in 1988. The thing is, 
Iraq has a history of functional government and national 
security forces--biased and brutal but functional. Afghanistan 
has no such history. It has had intervals of better government 
and worse government; better security forces, worse security 
forces; limited control of the country.
    Iraq's oil resources mean that the country has the 
potential to be quite wealthy, which means it can pay for its 
security forces. Afghanistan is stunningly poor. Its economy is 
highly dependent on the drug trade. It is hard to imagine a 
functioning Afghanistan that isn't dependent on foreign aid, 
including to pay its security forces and sustain them.
    Finally, the fact that Iraq is industrialized, the fact 
that it has better literacy rates, it means that its security 
forces can be fairly sophisticated. Afghanistan's cannot.
    Second point: Despite these differences, we have seen 
tremendous similarity in how security force development efforts 
in both countries have been approached and how they are being 
approached in Afghanistan now compared to Iraq as we prepare to 
draw down.
    There are a few reasons for this. One is that, at least on 
the surface, the goals seem similar: Build them up, so we can 
get out during an insurgency. The other reason, I think, is the 
same people are involved. These conflicts are going on 
simultaneously. Individuals are moving in and out of the two 
theaters. The same ideas were being tried one theater to the 
other.
    As we prepare now to draw down in Afghanistan, we really 
need to get away from our own standards and think about what 
makes sense in an Afghan context. This was a challenge in Iraq; 
it is also a challenge in Afghanistan. In Iraq, we found 
ourselves adjusting our standards down so that we could say 
they have met whatever it was our standard was. But our actual 
approaches weren't necessarily geared to what makes sense. And, 
you know, the example I like for Afghanistan is, we are helping 
them automate personnel systems, logistics systems. We want to 
get that done before we leave. We are doing this in a country 
where people are illiterate, connectivity is poor, and 
electricity is unreliable.
    In both Iraq and Afghanistan, you have seen--or I have seen 
personally, they keep separate ledgers. They take our systems, 
and they keep their own systems. And if you ask them, they will 
tell you, this is what we are going to use when you leave. 
Would it not make more sense, as we think about leaving, to 
work with them to build on the systems they have in place? And 
I think embedded trainers, embedded advisers can be crucial 
here, in that you could ask, well, how would you do this? What 
are you really doing?
    And I think this also applies to the question of engaging 
local forces. Some of the things that we have learned in 
Afghanistan won't work in Iraq. People often raise the Sons of 
Iraq as a lesson for Afghanistan, the Sunni Awakening. But you 
have a very different system there. The Sunni Awakening leaders 
made a decision to cease actively opposing the Iraqi Government 
and the United States for their own reasons. Things like the 
Village Stability Operations-Afghan Local Police program, it is 
for a different purpose. It is focused not on turning 
insurgents and their supporters but on spreading stability to 
rural areas.
    Reconciliation and reintegration efforts are geared to 
this, but there is no evidence that the right people are 
involved or that they would make reliable partners. And here I 
think we do take lessons from the Soviet experience when we 
look at the militias that were developed by the Soviets and 
their Afghan allies, which proved very unreliable and 
eventually came to fight the civil war.
    Finally, as we draw down, we do need to think about 
continued resourcing, as I think others have said. It is an 
important note from the Soviet experience that the Afghans held 
on far longer than anyone, including their Soviet advisers, 
expected. The Iraqis, we have yet to see. They don't meet our 
standards, but they are holding on. So the force we are 
building now might be able to last. We would like to see them 
do better than just last. I think we would like to be able to 
help support them in a way that they can make more lasting 
peace.
    Thank you very much. I look forward to your questions.
    [The prepared statement of Ms. Oliker can be found in the 
Appendix on page 74.]
    Mr. Wittman. Thank you, Ms. Oliker. We appreciate it.
    Panelists, thank you so much for your testimony. It is very 
insightful, very telling from a historical perspective.
    And, Dr. Collins, I would like to begin with you. You 
pointed out six successful keys to transfer of security 
responsibility within an indigenous security force. And I want 
to pick your brain and ask for your perspective on how many of 
those do you believe are currently in place in Afghanistan. Do 
you think that all six are required for success?
    And what conditions do you think the United States should 
consider when determining how the exact shape and form of 
withdrawal and drawdown is going to take place within the realm 
or the framework of the six keys that you defined?
    Dr. Collins. Some of these are there; some of them aren't.
    In my travels in Afghanistan, I have been very impressed 
with progress that was being made in the Afghan National Army 
and the Afghan National Police. And as Mark pointed out, the 
army has had a long march in this direction; the police, a few 
years less. But there are people there who are willing to 
fight.
    Some of the shortcomings there are in, as Mark pointed out 
again, in leader development and also in the responsiveness and 
agility of the system. The people in the field, they are 
motivated. They have to fight. They need to get their supplies. 
They need to move their convoys. And, you know, the ministerial 
systems are still somewhat shy of where they need to be, and 
they are working on that.
    One of the great things that I saw in 2012 going there, a 
difference between 2011, was the attitude of the advisers. In 
2011, American advisers were obsessed with the notion of, what 
can we do for our counterparts? And in 2012 that had completely 
changed. It was tough love. ``The Afghans have to do it 
themselves. They have to start today doing it themselves. They 
are not going to be borrowing helicopters. They are not going 
to be using ISAF as sort of a means of supply. They are going 
to make their own systems work.'' And lots of progress there 
out in the field.
    The rest of the government, again, a giant step behind, 
although ministerial advisers there are helping just about 
everywhere. One problem, of course, is in governance and 
corruption.
    And we really have to think in terms of the future 
government of Afghanistan. And the folks in the embassy were 
very, very proud of the fact that they have already begun to 
dialogue with the Afghans about the very sensitive subject of 
the next set of elections. Mr. Karzai has said he is not going 
to run; there is going to be a new Afghan President. And 
already there are a number of coalitions that are forming to 
run as, sort of, multiethnic coalitions to get the most amount 
of votes. And some of the same actors who were present will be 
on the stage, and some people who are close to President Karzai 
are also probably going to take a run at it.
    In terms of the six elements, I think there is a good plan. 
I think there is a possibility for a reinvigorated host 
government with new and vigorous leadership. And there are some 
star leaders down there among the general officers and among 
the deputy ministers who are moving to the fore.
    Improved relations between Kabul, the local power centers, 
and the tribal militias, I think some of that has begun to 
happen with the Village Stability Operations. And our folks are 
working on that real hard.
    And the Afghan Army and police, I think, are moving right 
up the tape. In the field, they are potentially very, very 
strong actors. Making the whole thing work--command and 
control, logistics, and all of that--is going to be 
problematical. But, again, this is a situation where they are 
not fighting the world's greatest army; they are fighting the 
Taliban. They are not fighting, as the Soviets and Najibullah 
had to do, a nation in arms. They are fighting a small 
minority, and they should have an opportunity.
    And a reliable and generous source of foreign aid. I think 
we have crossed a lot of good boundaries here in the last few 
weeks. We have a strategic partnership agreement. The Chicago 
summit was a success. Our NATO allies have bought into the 
business of at least $4 billion a year, and the Afghans plan on 
contributing to that, as well.
    I am over the time for my response, but I have to say that, 
you know, the Afghans are looking forward to managing to a 
greater degree their own war. You know, for example, in one of 
our studies, we came up with the notion that it would be nice, 
since $4 billion seemed to be a good number, that one of our 
options was to build down the Afghan forces. The Afghans are 
pretty convinced that they can run the force they have today on 
the $4 billion a year, and they are not looking forward to 
building down the force, not until the security conditions in 
the country begin to improve.
    And if I can just say one thing about the United States, we 
have been being driven by the calendar here up until 2014. And 
as we enter this very, very sensitive period, we need to make 
sure that we are paying very strict attention to conditions on 
the ground and that we are not blindly following a schedule 
which would get us into an awful lot of trouble if we are not 
careful.
    I am sorry for going over.
    Mr. Wittman. That is all right, Dr. Collins. Thank you. And 
we heard some of the same concerns from the Afghans when we 
were there recently, about the drawdown from 350,000 to 230,000 
and how that transition would take place in a reasonable way 
and where their capabilities would be. So I think that is 
obviously an issue in their minds and an issue also back home 
here, as far as a question.
    With that, we will turn to Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman.
    I thank the witnesses for the testimony.
    Dr. Collins, in your opinion, why did the Najibullah regime 
fail in Afghanistan?
    Dr. Collins. I think the Najibullah regime, for the time 
that it was in power, from 1986 to 1992, made a number of 
tremendous improvements. In a number of battles, they were able 
to fight the mujahideen to a standstill, and in a couple of 
places, like the first big battle in Jalalabad, they beat them 
soundly. They were--in effect, they were a better military 
force in that one battle.
    There were a number of problems that Najibullah had. For 
example, there was this unresolved issue between the factions 
of the governing party that not only infected the governance of 
Afghanistan but also affected the relations between the KGB and 
the army on the Soviet end.
    But I think the real reason why Najibullah failed was 
because his funds dried up. When the Soviet Union went out of 
business in December 1991, the large amounts of money, the 
truck convoys, the aerial deliveries of everything from food to 
ammunition, that all stopped. And Najibullah continued on for a 
few months, but----
    Mr. Andrews. So, to paraphrase, the absence of an 
indigenous Afghan economy that could support a regime caused 
the dependency upon the Soviet largesse. The Soviet largesse 
evaporates, so does the regime.
    Dr. Collins. Every leadership in Afghanistan in the 20th 
century----
    Mr. Andrews. Yeah.
    Dr. Collins [continuing]. The strong leaderships have had 
strong foreign support.
    Mr. Andrews. How would you rate the status of the Afghan 
economy today as it stacks up against, say, 1996? Is it any 
better?
    Dr. Collins. It is much better. The legal economy is 
growing rapidly. And, of course, we know about the problem of 
the illegal drug economy.
    Mr. Andrews. Right.
    Dr. Collins. But the economy has been growing.
    Mr. Andrews. Do you think the economy is large enough to 
support a viable regime this time around?
    Dr. Collins. In the future, with the addition of moneys 
from their strategic minerals, they will begin to be able in 
the next decade or 2 to wean themselves from foreign 
assistance.
    Mr. Andrews. If you had to take an educated guess, is the 
present level of U.S. aid sufficient to sustain economic 
development in Afghanistan? If not, how much more is needed?
    Dr. Collins. I think the amounts of--and it is not just the 
United States on the economic assistance front----
    Mr. Andrews. I understand, but the whole NATO complex I 
mean.
    Dr. Collins. Yeah. I think international economic 
assistance, if, in fact, they deliver on the $16 billion 
promised at the Tokyo conference, I think that is enough, 
economically, to keep their head above water. And if we can 
keep up the $4 billion a year for the Afghan National Security 
Forces--half a billion of which, by the way, is coming from the 
Afghans--I think that that will be enough to keep them going.
    Mr. Andrews. So putting aside for a moment the very real 
tactical differences about the pace of withdrawal that I hear 
among the witnesses, is it your conclusion that the 
fundamentals of the present plan--which are to ramp up the 
effectiveness of the Afghan forces, sustain economic 
development in Afghanistan, encourage a fair and free election, 
and then work with the winner of that election--do you think 
that is essentially the right plan?
    Dr. Collins. I think that is absolutely the right plan, and 
I think it is on track. There are a lot of places where it 
could not go off track.
    Mr. Andrews. What do you think of the 2014 timetable? Is it 
too fast?
    Colonel Collins. If I were the president and I became the 
new president in----
    Mr. Andrews. Are you announcing your candidacy?
    Dr. Collins. No. No, no. No, I am far too smart for that.
    Mr. Andrews. Okay. The opposition research has already 
started on you. I mean, you know----
    Dr. Collins. It is a tough job, yes. And you can have all 
my tax returns back to 1980.
    Mr. Andrews. Okay.
    Dr. Collins. They will put you to sleep.
    Mr. Andrews. Okay. Fair enough. Don't strap your dog to the 
roof.
    Dr. Collins. You mean again.
    Okay. I think it is quite possible that we could slide back 
to that in--we could slide 2014 into the future.
    But I am not sure there is a sentiment for that now. I 
think our NATO allies think 2014 is the right answer. And there 
is a missing piece here, and the piece is, what does the NATO 
ISAF force after the one we have right now, what does it look 
like?
    Mr. Andrews. I see my time has expired. I appreciate your 
answers, and we look forward to your declaration of candidacy. 
Thank you.
    Mr. Wittman. Thank you, Mr. Andrews.
    We will now turn to Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    And, folks, thanks for being here.
    Dr. Sorley, I know we are looking at mostly the impact on 
Afghanistan and Iraq, those kinds of things. But I would 
appreciate your comments on, after the fall of Vietnam--or the 
Vietnam War was over and, again, the fall of the Soviet Union 
and the Cold War, we trimmed our forces back dramatically. It 
looks like we are about to do the exact same thing following 
the experiences now.
    Can you give us your historical perspective on how well 
that worked or didn't work and what are the risks to our 
system?
    Dr. Sorley. I have in my head the reverberation of comments 
I have heard General Abrams make when he was Army Chief of 
Staff. And he would say to any audience he could get to listen, 
``We have paid''--he would pound out each time--``We have paid 
and paid and paid again for our failure to be prepared for war, 
even though we didn't want it. And we paid in the blood and 
sacrifice of our soldiers.'' So he was strongly in favor of not 
having that done again.
    Things were a little different after--at least after the 
Korean War, in that the circumstances with respect to the 
Communists worldwide motivated us to maintain a much larger 
standing force than we ever had in peacetime before. People my 
generation were young officers in that period, and we had 
served primarily in Europe, and we had really a very good Army 
at that time.
    It does look like we are going to once again drastically 
draw down the forces. There are some pluses as well as some 
minuses, though. One of the concerns I have had for a number of 
years is that we have basically been exploiting our Reserve 
Components in ways that I think were never contemplated until 
now. I have thought perhaps we did that in part because we 
doubted, our leaders doubted, in an All-Volunteer Force 
environment whether we could attract enough people to maintain 
a larger Active Force. And so we augmented it with the Reserve 
Forces, doing things much like Active Forces, not like Reserve 
Forces.
    If we draw down dramatically, we need to be very careful 
that we maintain a system that will enable us to reconstitute a 
force in a responsible and relatively rapid way if the time 
comes when we need that. You hate to predict that those times 
will come, but one statistic that has always impressed me is 
that no class graduating from the United States Military 
Academy, which was founded in 1802, has failed to have an 
opportunity to serve in combat.
    Mr. Conaway. Thank you.
    Ms. Oliker, given the lack of immunity that the Iraqis 
wanted to give our troops to stay beyond December 31st of 
2011--and most of us believe that was an important segment--is 
that we got out right off the bat. Could you talk to us about 
what the circumstances have been in Iraq, given the immediate 
pullout on December 31st, 2012, has had in Iraq and what the--
or--yeah, go ahead--has had in Iraq, from your perspective?
    Ms. Oliker. We continue to see violence in Iraq----
    Mr. Conaway. Is it violence at a level that is law 
enforcement? Or is it violence at the level of military 
fighting?
    Ms. Oliker. So the Iraqi Armed Forces maintain a very 
strong internal role. I mean, this is one of the things that we 
have seen in both countries as we start off thinking that the 
police are going to take on a lot of these tasks and they 
don't. This isn't a matter of the violence and the level of 
violence; it is a matter of the capacity of the police forces 
and the need to use the military in these roles and, you know, 
in part, our failure to build police forces that can take those 
on.
    I think Iraq has escalating violence in some very unnerving 
areas today. I think we see a government that is trying to 
consolidate, perhaps at the expense of some of its--those it 
needed to make a coalition. I don't think Iraq is out of the 
woods yet. I do see that the Iraqi Government plans to put the 
police in the lead role for security this summer, and I am a 
little skeptical of how that is going to work out. But I don't 
know that us staying longer would have made the difference. And 
I think that is the important part.
    Mr. Conaway. All right.
    Dr. Collins, you were there having the NATO training 
mission. Could you talk to us a little bit, quickly, about the 
impact education has in Afghanistan? We heard a great deal from 
General Caldwell when he was there, that, you know, bringing 
these folks up to a 2nd-grade level is part of the issue. Could 
you talk to us about the impact that has on the ability to 
develop leaders?
    Dr. Collins. I think it is one of the most important things 
we have started. There is only--there are a couple of 
generations of people where there is a tremendous amount of 
illiteracy. And the only adult education program in the country 
now is in the police and the army. And we have found people who 
are joining. I have sat through, both in 2011 and 2012, some of 
these classes. The classes are conducted by civilian 
instructors, and the students are genuinely enthusiastic--as 
enthusiastic as they are about anything.
    I think this is extremely important and it needs to be 
continued, particularly in the police. Basic literacy is just 
so important, you know, even for two soldiers to know, which 
AK-47 [assault rifle] is mine? You know, unless you are going 
to start painting bunnies and birds on the rifle stock, you 
know, people have to be able to read the serial number. A 
policeman needs to be able to say, it was that car, you know, 
that kind of make and model, that sort of license plate. That 
is going to make a big difference.
    Education throughout the country is a tremendous 
improvement. There were hundreds of thousands of people, all 
male, when the Taliban left. There are now millions, and in the 
high 30 percents are female. There is just no telling where 
that is going to go.
    There is another explosion of individual learning that is 
going on in Afghanistan through cell phones, the Internet, and 
whatever. There is a tremendous cell phone culture in 
Afghanistan which is incredible. Also, an awful lot of media. 
Nearly 90 percent of Afghans hear the radio every day.
    And so, there are a lot of good--a lot of good things have 
happened there. In education and health care, there are--
barring the reappearance of civil war, there are tremendous 
permanent improvements that have been made in Afghanistan that 
are going to revolutionize that country.
    Mr. Wittman. Thank you, Mr. Conaway.
    We will now go to Mr. Critz.
    Mr. Critz. Thank you, Mr. Chairman.
    Dr. Collins, you made a comment about education and about 
the people in Afghanistan being able to identify even the 
serial number on their rifle. And that leads right into a 
question about the educational level and professionalism, 
because both you and Ms. Oliker mentioned the Afghan local 
police and the issues that exist there.
    Now, the administration has targeted a number of about 
30,000 Afghan local police. And I just would like to hear your 
comments on the sizing of the force and the possibility or, 
maybe because of low education and a lack of professionalism 
that that can engender, their devolvement into just tribal 
groups within their local areas.
    So we will do ladies first. Ms. Oliker, if you would answer 
first.
    Ms. Oliker. I think that, actually, the VSO-ALP [Village 
Stability Operations-Afghan Local Police] program is one 
program that is trying to take lessons from the Soviet 
experience, because they are very nervous about it looking like 
the effort to build militias during the Najibullah regime, 
which was very effective in building up the forces which 
quickly overtook the regular security forces in number and 
really did undermine its own purpose over time.
    So the idea is to try to keep groups small, to try to keep 
the program manageable, to try to limit the, kind of, links to 
warlordism and make sure that that is not what you are doing, 
that you are not empowering an army warlord, and also to keep 
the mission a very limited defensive mission.
    Now, in terms of education and their capabilities, we have 
made some tremendous strides with literacy programs. We 
continue to have very limited reach to the Afghan police as a 
whole, including of those programs. So I am not sure that the 
average Afghan National Police officer has a better shot at 
being literate than your average ALP member. So I don't know 
that, you know, I would say that that is what is making the 
difference in their professionalism or capability.
    The ALP, they are meant to be local, to provide for local 
defense. I think it is very crucial that, as that is built up, 
that is where it stays, that this isn't seen as a replacement 
for formal security structures. But I don't think that it is 
inherently problematic in that context.
    Mr. Critz. Thank you.
    Dr. Collins. When I was in the Government, 2001-2004, and I 
was the DASD [Deputy Assistant Secretary of Defense] for 
Stability Ops, I was one of the major obstacles for holding 
back on this notion of local police forces below the Ministry 
of the Interior. I have since become a convert.
    I think the Village Stability Operations are the way to go. 
They have obvious dangers of these people becoming new warlord 
armies and also in discipline. You know, young men with a 
little bit of money and guns in a local area where there are no 
organized army or police forces who are there--you know, the 
dangers are obvious.
    The way you get around them is by good training--and these 
people are being trained by special operations forces from 
ISAF--and then supervision from the Ministry of the Interior. 
That, of course, could be problematical. The Ministry of the 
Interior has, from time to time, had problems with, you know, 
supervising the uniformed and the border police.
    And so this is something that is going to have to be worked 
on over time. But I think 30,000 is a good start. And if this 
program succeeds up to the 30,000 level, I think they would 
doubled it.
    Mr. Critz. Well, thank you.
    Dr. Sorley, in your written testimony, you indicate the 
withdrawal decision should be based on criteria other than 
political calculations. So my question for you would be, do you 
think that DOD [Department of Defense] currently has in place 
sufficient mechanisms to measure the situation in Afghanistan 
to ensure that we are conducting our departure responsibly?
    Dr. Sorley. That is a key point.
    And the first thing I would say that makes me more 
optimistic than I would otherwise be is that the domestic 
political context in which the Nixon administration was making 
its decisions on withdrawals was extremely difficult. A very 
active antiwar faction was causing it great difficulty. And as 
I alluded to briefly in my opening remarks, the President 
apparently felt it was necessary to always have a next 
withdrawal increment planned and scheduled before the one in 
progress had finished.
    What is radically different now--and it is an enormously 
influential difference--is that we have an All-Volunteer Force, 
and, therefore, we don't have those factions in the streets 
advocating a more rapid withdrawal or noninvolvement to begin 
with.
    So I think it is possible, in that less heated environment, 
to establish the appropriate criteria in a more professional 
way and then to have a hope if you are the senior military 
leadership that the political leadership will not only back you 
but be able to do that.
    I think, too--Dr. Collins had suggested it earlier in his 
remarks, the possibility that a 2014 deadline could be possibly 
moved forward, at least for some elements of some size. I don't 
think that was an option in the Vietnam era. Had that been 
tried, I think that the thing would have fallen in on them. 
Maybe now, though, there is a possibility that that could be 
negotiated.
    Mr. Critz. Thank you.
    Mr. Wittman. Thank you, Mr. Critz.
    We will now move to Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    And I would like to thank the panelists for being here 
today.
    Ms. Oliker, I think you talked about parallels between--or 
a lack of, maybe, parallels between Iraq and Afghanistan. And 
several of you discussed the lagging capabilities of the police 
forces in Afghanistan.
    And let me just say, I served in Iraq in the United States 
Marine Corps in 2005-2006 in civil affairs. And I was in 
Fallujah in 2005, where we stood up a police force under 
pressure to move the transition forward. And it was a failure 
because we could rely on the Iraqi Army, who went into a secure 
base camp at night, who weren't necessarily from the area, but 
the Iraqi police force that was stood up would go home within 
the community. And if they were effectively doing their job, 
the insurgents would follow them home and kill them, and their 
families, too.
    And so, as 2005 wore on, we began to lose control of the 
city and take casualties within the city. But when it was 
cleared out in 2004, we secured--all of the entry points were 
secured coming into the city, and all vehicles were searched 
and everything. Changed from the United States Marines 
controlling those points to Iraqi police, and they were letting 
the insurgents inside the city.
    So I just think that--and when I--from there, I went to 
Haditha, you know, as a civil affairs officer with a battalion 
that was doing a blocking position along the Western Euphrates 
River Valley. And there we didn't even have enough security to 
establish a police force at all, so we didn't try; we just 
relied on U.S. Marines and the Iraqi Army.
    And so, are the same issues in Afghanistan in terms of 
trying to stand up a police force?
    Ms. Oliker. Some of them.
    Now in Afghanistan, as in Iraq, you have a national level 
force which is supposed to have more of a counterinsurgency 
mission and more local police that are supposed to be recruited 
in their local areas and then deployed there as well. There has 
been a lot of difficulty recruiting in some of these areas. And 
Dr. Collins may have more recent information than I; I think 
mine is about a year old. So they have had to recruit from 
elsewhere, bring them in and kind of set up some barracks in 
some cases.
    So it is a little bit different because often you just 
don't have the local police available. And, of course, the 
whole VSO-ALP program, because in some rural areas you have no 
security at all, and you have to build something.
    Now, I think this is part of the problem, the sort of 
counterinsurgency you have; that if you are fighting an enemy 
that has a tremendous amount of support within the population, 
developing forces that are loyal to the central government, you 
know, it is inherently a tremendous challenge. And figuring out 
ways to convince the population as a whole, you know, not just 
to build loyal police, but to convince the population that, you 
know, their own government is in their interests rather than 
the insurgency is really the fundamental challenge here.
    Dr. Moyar. Can I comment on that question, as well?
    Mr. Coffman. Sure.
    Dr. Moyar. I do address that in my longer statement, but 
the question of how we get them to take ownership is a 
recurring one. In Vietnam, we actually have some positive 
examples where, in the latter part of the war, as the U.S. 
withdraws, you actually do see the South Vietnamese taking on a 
greater responsibility, in large part because they see they 
can't rely on the United States and they realize their survival 
depends on getting their act together.
    Now, we are hearing a lot of talk lately from policymakers 
in this country about the same thing happening to Afghanistan. 
You know, let's take the crutches away, let them--you know, if 
we force them to do more, they are going to do more. But I 
think the case you have raised, Iraq is actually a very 
cautionary point because it shows that there is two outcomes: 
There is the Vietnam outcome, where they get their act 
together, and then there is the Iraq 2005-2006, where they keep 
failing, suffering massive losses. And, as we know, the reason 
we turned Iraq around was that General Petraeus in 2007 said, 
you know, it is great to support self-sufficiency, but they are 
not doing it, we are going to have to go in and do some of 
these things for them.
    And I think there is a real risk in Afghanistan, especially 
with the police force, as you mentioned, because, as I say, I 
don't think they are going to be ready to be self-sufficient at 
the end of 2014, and I think there is a strong need for 
continued U.S. advising with those forces. And if we simply 
throw them out there on their own and they suffer horrific 
losses, it is going to be catastrophic. And we have seen that 
already happen in a number of cases in Afghanistan.
    Ms. Oliker. Can I just jump in quickly to say we are not 
advising them now on the police. Our reach in mentoring or 
advising the police is atrocious.
    Dr. Collins. Two ways of sort of looking at the police. 
First off, there are different types of police. And, in 
general, the border police and the ANCOP, which is the national 
civil order police, Afghan National Civil Order Police, they 
are like gendarmes. Both the border police and the ANCOP are 
better trained and have a much more solid reputation.
    The regular uniformed police and the counternarcotics 
police, you know, particularly the Afghan uniformed police, 
they vary from region to region. And in areas where there has 
been less fighting and in areas where the Taliban has been 
weak, the Afghan uniformed police, the regular police, are in 
very good shape.
    In other areas that were Taliban strongholds, like in 
Helmand, the uniformed police are just beginning to become 
effective. Their trainers are just transitioning from being 
allied forces trainers to being Afghan trainers. And, in some 
cases, that means you are taking young officers from other 
parts of the country who may not be Pashto speakers and putting 
them down in those areas--a big problem, and they have to work 
it out.
    There is also excess training infrastructure in the Afghan 
National Police, and the Afghans are aware of that. The big 
surge in Afghanistan was not the 40,000 allied forces; the big 
surge in Afghanistan was Afghan National Army and Police. And 
we built up their infrastructure to do that, and now they are 
going to need to tailor that regional police and army training 
structure back down to a manageable level.
    Mr. Wittman. Thank you, Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    Mr. Wittman. We will go to Mr. Young.
    Mr. Young. Thank you, Mr. Chairman.
    And thank you all for being here today.
    Dr. Moyar, I was struck by your lesson from Vietnam that it 
takes about 10 years, at least in that case, to train midlevel 
officers, get them up to the level of competency to carry out 
their missions. And I just wonder, as we try and assess whether 
we are dedicating, planning for the appropriate amount of time 
for advisory and training missions, whether different 
conditions might merit a more compressed time frame for 
training and experience to be gained in Afghanistan, or perhaps 
it is a more extended time frame.
    What commonalities or what differences strike you as you 
compare and contrast the two different environments?
    Dr. Moyar. Yeah. And I have--in my most recent book, I 
looked at this across a lot of different countries. And I have 
seen pretty much in just about every case 10 years is the 
absolute minimum. Now, if you look in our own military, our own 
police force, you are talking 15 to 20 years before we give 
people the kind of--you know, turn them into a battalion 
commander. When you get below 10, you see pretty consistently, 
you know, military incompetence and abuses of power. You know, 
one of the biggest problems we see consistently with 
inexperienced counterinsurgency forces is stealing chickens and 
beating people up and doing things of that nature.
    And consistently, again, as I mentioned, this is something 
that is oftentimes forgotten in a crisis, because what usually 
happens is things get bad and somebody says, well, hey, we 
really need to expand the security forces. And so, you can 
train that private and equip them in 6 months, and a lot of 
times people don't recognize that what it takes to make a 
private is very different from what it takes to make a 
lieutenant colonel, and so when you compress it, as we have 
often tried to do, it is a disaster.
    I mean, in Afghanistan we got this wrong, especially in the 
police, for almost a decade, where we kept thinking we are 
going to get a whole bunch of police officers, train them real 
quickly, give them 8 weeks of training, throw them out there. 
You know, the Afghan National Auxiliary Police is the most 
striking example, where, you know, a lot of them ended up 
deserting or defecting to the enemy. And not until early 2010 
did we even, you know, I think, take a more long-term approach, 
and that is at which point it really got turned over to General 
Caldwell, the NATO training mission.
    There is still, I think, too much pressure to get people 
through quickly. You know, they have extended officer training 
for the police from 8 weeks to 6 months for a lot of these 
folks. A lot of people would tell you, you know, you really 
want to train these people for a year if you really want to get 
the type of people you want.
    I will say that there are some really impressive 
institutions in the Afghan forces there. Their equivalent of 
West Point, the National Military Academy, is terrific. They 
have, you know, a longer course; the police do have a longer 
course. But I think when you try to cut corners and try to do 
it more quickly, it ends up just being counterproductive.
    Mr. Young. Ms. Oliker, there have been a number of recent 
media reports related to the motivation of the indigenous 
forces in Afghanistan and to their training. And often these 
are favorable reports, at least from our standpoint, that the 
forces are becoming more capable. But there is a lamentation, 
frequently, which follows such professions of competence, 
related to insufficient equipment.
    I would be interested, based on your earlier thoughts 
related to the need to adapt to local circumstances, whether 
you think instead we ought to change our thinking here and put 
more emphasis on a localized model of preparing these forces 
and equipping them with military materiel.
    Ms. Oliker. There is no developing-world military that 
doesn't want the newest, shiniest, most advanced equipment, and 
there are very few that can maintain it. And if you look at all 
of these experiences--I haven't looked at Vietnam in as much 
depth as I have looked at the Soviet Union, in Afghanistan, us 
in Afghanistan, us in Iraq--maintenance of equipment is a 
tremendous challenge. I mean, the Soviets were able to give out 
Kalashnikovs [assault rifles]. You can bury one of those in the 
sand for 30 years, pull it out, and it will still work. We are 
giving them far more advanced materials.
    I have also--consistently, I think, there is a bit of a 
hoarding mentality. So rather than repair it, they want new 
ones. And sometimes even if they have new ones, they want more 
new ones. And we have had a hard time keeping track of just 
what happens to equipment in the past in Iraq. I think we have 
done better in Afghanistan, but I also think you need to treat 
with a grain of salt statements that, really, we just need more 
stuff.
    Thank you.
    Mr. Young. Thank you.
    I finished with 1 second remaining for the record. Yield 
back.
    Mr. Wittman. Thank you, Mr. Young. We appreciate that.
    We will now go through a second round of questions.
    And, Ms. Oliker, I want to follow up with your question 
from Mr. Young. You had stated in your earlier testimony about 
sophisticated versus simple, and that U.S. forces are trying to 
pursue a more sophisticated model in both training and 
equipping the Afghan forces.
    And I want to know, even with the advances in education, 
which by our metric is still fairly small, is it the proper 
model to be pursuing that element of sophistication in that 
force capability?
    And the reason I say that is because there is still an 
effort by U.S. forces to develop an air support element to 
where Afghans can fly helicopters, another support element with 
not even being able to gather intelligence, surveillance, and 
reconnaissance information but actually be able to use it to 
put together battle plans. We know that some units are somewhat 
capable of doing that, others are not.
    Is it a realistic expectation for us to model every element 
of the army within that realm? Or should we be looking at a 
more simplistic model to say that maybe our expectations there 
should be more limited and more in the realm of what local 
police and national police do, and look at a different role for 
the army within that realm?
    Ms. Oliker. So I think any systems that are going to be 
broadly used need to be very simple because, no, the--no one 
has ever actually been able to explain to me what a 2nd-grade-
level literacy is in Afghanistan, but I assume it means that 
they can, you know, sound some things out, read serial numbers, 
and so forth. That is not going to get you to the system we are 
trying to deploy ANA [Afghan National Army]-wide and ANP 
[Afghan National Police]-wide.
    This said, that doesn't mean you can't build an air 
component. We have actually done that, right? There are Afghan 
pilots who are doing fine. It is not that everybody in the 
country is illiterate. It is that you have elite capabilities 
which you can get at a much higher level of sophistication for, 
and you have what the general force looks like and how it 
operates, where you do want to start with something that you 
will be able to promote your private into doing, that your 
supply officer can actually handle the supply system. And I 
think it is very important to make that differentiation.
    Dr. Collins. Sir, may I say a few words about this?
    The Afghan Army is very simple. It is a very light force. 
It even has very few mortars and artillery pieces.
    The Afghan forces under Najibullah had 240--240 attack 
aircraft. The Afghan forces today have 11, only 7 of which are 
flyable. Our big initiative for them was the Super Tucano, 
which was 20-odd very primitive aircraft. And that has some 
kind of contracting problem. And so, you know, that thought is 
still on the books, it is still a plan, but right now, if you 
want to ask yourself how many attack aircraft do Afghan forces 
have, the answer is seven. And those numbers are in the DOD 
report, so I am not revealing anything here.
    Close air support is a tremendous force multiplier. We need 
to think hard about what we are doing here. And there are ways 
to solve this particular problem. The Afghan Air Force is the 
last force out of the chute for the Afghan national forces, and 
I really think we need to look to its development all the way 
around.
    Our Air Force, this year, decided that they are going to 
take 100 A-10 attack aircraft out of the system. And those are 
sophisticated close air support weapons. You all know more 
about them than I do. But that may be a potential solution 
here. If the Air Force is going to take these and put them in 
the boneyard, I don't know why we need to buy the Super Tucano 
if we, you know, might be able to do something with those 
aircraft.
    I have asked some Air Force folks about it, and the answers 
I get are, well, geez, we have never exported the A-10 
aircraft. I don't know what that means. There may be something 
in the A-10 that we don't want--that we need to keep in the 
boneyard. But, in any case, there may be a potential solution 
right here, in terms of equipment that we have already declared 
to be surplus.
    Mr. Wittman. Dr. Sorley.
    Dr. Sorley. I would like to just comment briefly based on 
the Vietnam experience.
    A factor to be considered is what weaponry does the enemy 
have and how does what we are giving our clients match up with 
what they have. In the early days of our involvement in 
Vietnam, when General Westmoreland was the Commander of U.S. 
Forces, he equipped the South Vietnamese with essentially 
castoff World War II U.S. equipment, things like the M1 rifle, 
which was almost as tall as the average Vietnamese, and 
carbines. And, meanwhile, the Army was equipping their forces 
with the AK-47, one of the great assault rifles of all time; 
still is.
    And when General Abrams came on board then, one of the 
first things he said was, we have to face it, the Vietnamese 
have been getting the least support of anybody involved in 
this, and this is what we are trying to change. He then gave 
them priority for the M-16 rifle and other things that helped 
them be more effective in field. But a lot of damage was 
already done, and damage in terms of our support for the 
Vietnamese and for their conduct of the war. Because these 
underarmed, underequipped South Vietnamese forces were taking a 
beating pretty often in their encounters with the enemy, which 
badly affected their morale, their effectiveness, and, even 
more important, their self-respect and their reputation.
    Mr. Wittman. Thank you, Dr. Sorley.
    And we will go now to Mr. Andrews.
    Mr. Andrews. Mr. Chairman, I do not have further questions 
but would like to make a final comment at the appropriate time.
    Mr. Wittman. Please--yeah, we are going to go through and 
see if there are any further questions, and then we will close 
with your comments.
    Mr. Conaway.
    Mr. Conaway. Well, thank you.
    The issue about when to pull out or when to draw down the 
forces; if you set a timeframe of 2014, can the Afghan security 
forces get good enough in that 2-year remaining timeframe; can 
the Taliban stand on the sidelines and run the risk that the 
Afghan security forces get so good that they can't do what--you 
know, all that nonsense. And then we lay in there that 
strategic partnership agreement that the Administration is 
talking to them about that would extend U.S. commitments to 
2024.
    Can you all talk about, does that partnership agreement 
have an impact, is it of value at this stage, in terms of what 
the Taliban are trying to decide their role will be and how 
they assess what their opportunities are to dismantle all this 
hard work?
    Dr. Moyar. I will talk to that question.
    I think those agreements have been somewhat helpful, but I 
think we shouldn't assume that that is going to spare 
Afghanistan from further trouble.
    One thing I want to mention, because we haven't really 
talked about it much today, is the role of Pakistan in all 
this. You know, they clearly provide, either purposely or 
tacitly, support to a lot of these insurgents. And as long as 
that continues, there is going to be a problem.
    You know, if you look at Vietnam, the 1972 offensive--
sometimes you think, well, if we keep a lot of U.S. forces 
there, no one is going to attack. Well, in 1972, there were 
69,000 Americans in support and advisory roles, and the North 
Vietnamese still went ahead and attacked.
    The other thing I would raise is, I think there is still a 
danger, even with these agreements, of cutting the funding 
because we can always--you know, in Vietnam we didn't 
completely cut the funding, but we let the Congress cut it to a 
level that made survival impossible. And as Bob mentioned, in 
the case in Vietnam, as you start to pull out more and more, 
there is a momentum to get out. And we saw the same thing in 
Iraq. You know, I think a lot of people thought in Iraq we 
would keep a residual force, and in the end, you know, it 
became politically expedient to get out. And so I think there 
is a real danger that, going forward, that we may cut down the 
aid to levels that are insufficient. And so I hope--I would 
urge you to keep your eye on that.
    Dr. Collins. If I could just say a word or two about this.
    We abandoned the mujahideen. We thought our job was to get 
the Soviets out. We did it, and we said, okay, that is it, we 
will hang in there for humanitarian aid but nothing else. That 
led to the Taliban, which of course brought in Al Qaeda--well, 
it didn't bring in Al Qaeda, but developed a symbiotic 
relationship with the terrorist organization, and that led to 
9/11.
    No one would predict an exact replay of such a situation, 
but the whole notion of American or Western abandonment is 
alive and well in Pakistan and Afghanistan. And the strategic 
partnership agreement and the declaration at Chicago, they have 
had some good effect. On the Pakistan side of the fence, it has 
been pretty clear that 2014 doesn't mean 2014, period, end of 
song. We are going out to 2024. We are talking about a new 
force after ISAF. We are reopening the ground lines of 
communication to Pakistan, which is important for their economy 
as well as for our supply.
    And all of a sudden now, after being dormant for 4 or 5 
months, people now are talking about reconciliation, which is 
the term for peacemaking. The Taliban are not going to say much 
about reconciliation and peacemaking until they get green 
lights from Pakistan. And, apparently, the strategic 
partnership agreement and the Chicago declaration have had some 
salutary effects in the short run. I think Mark is absolutely 
right. These are now words, and they have to be backed up by 
deeds. And they have to be backed up by deeds between now and 
the next 10 years.
    Mr. Conaway. Thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Mr. Conaway.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    Let's just say that there is--let's draw some assumptions 
to say there is not reconciliation with the Taliban, that we do 
continue support, that we do the transfer in operational 
control by the end of 2014 whether or not they are prepared for 
that, and we have a very light footprint of advisers left, but 
we continue our support in accordance with the agreements 
already made. Under those set of facts, what is the worst-case 
scenario the United States can expect?
    Because it seems to me that this is not, when we talk about 
Vietnam, this is not the North Vietnamese, where there was 
insurgency and there was a very large conventional force. There 
is no conventional force here. I question their ability to 
amass their forces adequately to take Kabul. They may be able--
maybe there are certain provinces toward the east and to the 
south that may fall.
    But so where is the worst-case scenario?
    Dr. Moyar. Well, and I laid this out a little bit, but, you 
know, I think the worst case is that you start to see some 
major insurgent gains in the south and east and you see a lack 
of action or even defection among some of the Pashtun 
commanders within the Afghan security forces, which--you know, 
if you look in their past, there are lengthy histories of 
commanders switching sides. And we have already--I think it has 
subsided a bit, but in recent years we have already seen 
Pashtun and Tajik blocs forming within the Afghan security 
forces in anticipation of something like this.
    And, now, the Tajiks have built up a lot of strength around 
Kabul. You know, I don't know the insurgents would necessarily 
go attack Kabul, at least right away, but even if they just 
have much of the south and east, that would allow them to bring 
other groups in, potentially Al Qaeda, Haqqani, which--you 
know, Haqqani and Al Qaeda are doing business together a lot in 
ways we don't, I think, fully understand. And it would also 
force us to remove a lot of our counterterrorism presence.
    So I am not sure we--and there could be, ultimately, some 
full-scale battle for Kabul. But even without that, I think the 
scenario could be pretty bleak, potentially.
    Dr. Collins. I think that, first off, in the long run, the 
Taliban can't win unless we quit. There is no North Vietnamese 
Army here backed up by Russia and China with massive pipelines 
and Russian tanks and mechanized equipment. That sort of 
development is not a possibility.
    But there are bad things that could happen. You could have 
a deterioration of security conditions in any number of places. 
You could have, in the long run, a coup, where the security 
forces get together and basically say, the rest of this 
government is not cutting it, we are going to take over and 
restore order and have martial law. You could also have a civil 
war where you have Tajiks and Uzbeks on one side, Pashtuns on 
the other. A bad peace with the Taliban would not be a good 
idea, could be something that could cause a civil war very 
easily.
    All of these things are preventable through engagement and 
U.S. assistance and continuing to work the situation. The 
Taliban is not a strong enemy. It is not like the North 
Vietnamese; it doesn't have Russia and China behind it. And 
unless we quit or show signs of quitting, Pakistan is not going 
to, sort of, unleash its forces to help them get control of the 
country.
    Ms. Oliker. The one thing I would say, though, is that we--
I don't disagree, but I also think that our best-case scenario 
isn't that far away from some of our not, kind of, bad-case 
scenarios. As long as you still have Pakistan supporting the 
insurgents, the Afghan Government, even with continued support 
from us, is not going to control the entire country. It is not 
going to be able to exert rule; it is not going to be able to 
maintain security forces it trusts everywhere.
    We are going to see--I think, you know, the odds are very 
high we are going to see continued conflict. The question is, 
are we going to prevent the emergence of real terrorist safe 
havens for Al Qaeda? Are we going to be able to sustain a 
government in Kabul?
    Mr. Coffman. One quickly, and that is, if, though, we--if 
Afghan security forces control the bulk of the country, even if 
you had areas that fall to the Taliban, wouldn't we not have a 
base of operations whereby we could launch counterterrorism 
operations against those areas to knock out the very 
terrorist----
    Ms. Oliker. Right.
    Mr. Coffman [continuing]. Elements that you just talked 
about?
    Ms. Oliker. Right. I think that is your best case. But your 
best case is not peace, security, stability, and, you know, 
effective growth in the near term.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    Mr. Wittman. Thank you, Mr. Coffman.
    We are going to go to closing comments now.
    Mr. Andrews, I will go to you.
    Mr. Andrews. Chairman, thank you.
    And I would like to thank the witnesses for their 
preparation and their testimony here this afternoon.
    I think there is a lot of agreement among the Members as to 
what we either cannot do or don't want to do. No one that I 
know is for an indefinite U.S. occupation of Afghanistan. It is 
a straw man used a lot around here, but I don't think anybody 
is for it. Nor is anyone for an abandonment of that area of the 
world. I don't think that anyone who lived through 9/11 could 
in good conscience say, ``let's just totally disengage from 
that area of the world.'' That would be irresponsible.
    So the choice is really the nature of our engagement. The 
optimal engagement is one in which a flourishing Afghan economy 
yields a legitimate government, which yields a security 
structure which denies terrorists the opportunity for safe 
haven in Afghanistan forever. The least desirable outcome is 
one where we have to be much more engaged and kinetic on a 
regular basis in order to prevent that from happening. I think 
that this discussion has been quite useful in helping us 
develop some metrics as to which of those two polar opposites 
we are headed toward.
    Optimism is not usually justified in the case of studying 
these issues, but I do think there is some basis for optimism. 
This panel and the full committee has heard from any number of 
sources in the last 6 or 7 months some very encouraging data 
about the readiness of the Afghan forces. And it is not just 
what I would call process data about how many people signed up 
or how many units have been formed, but how many units are 
really taking the lead and how many units are actually 
performing the vital security functions. I think that there is 
real reason for progress.
    Mr. Chairman, I think that your hearings have served a very 
important function, and I hope that we continue them, because 
this panel and others have given us a set of criteria that I 
think we can apply intelligently. Now we need to apply those 
criteria and ask the hard questions of our uniformed and 
civilian leaders at the Department of Defense as to how things 
are going.
    You know, this is not, as I said at the outset, an 
abstract, theoretical discussion. I cannot walk past the 
Capitol dome and not think about Afghanistan, because I 
understand that, but for the heroic Americans on Flight 93, 
there is a good chance that dome would not be standing today. 
And that evil emanated from a failure in Afghanistan. We can't 
afford another one.
    So I think giving us the opportunity to assess that is very 
useful. I thank you and our colleagues and look forward to our 
continued collaboration on this issue.
    Mr. Wittman. Very good. Well, thank you, Mr. Andrews.
    And we do have some remaining hearing time that we will be 
trying to conclude the series of pieces of information that we 
want to put together. What our focus is is to bring that 
information together, have it as a conduit for decisionmaking 
by the full committee. And I am hopeful that what we put 
together here will be a useful foundation for, as you said, the 
questions we need to ask of our uniformed military leaders, 
also those folks within the Office of Secretary of Defense, to 
determine, you know, where are we going, where is progress 
being made, what are the challenges left, how do we make sure 
that we get this transition right.
    I think everybody's focus is that, and I think you have 
pointed that out. All of us, every day, think about, you know, 
what are we doing to support our men and women that are there 
fighting this fight, how do we make sure that the sacrifices 
made by this country, our families and the men and women that 
fought there are not in vain, that we give some semblance of a 
chance at success for forces there in Afghanistan. And you 
pointed out very eloquently that there has to be a basis of 
security, of governance, and of a sound and functioning 
economy. If those things emerge, that country has a chance, I 
think, in the long run to be successful and self-sustaining.
    So I appreciate our witnesses and their thoughts today. 
What you have given us is a great perspective from history as 
to where we need to go in asking questions and keeping up the 
efforts on this panel's part to ensure we are asking the right 
questions of how decisions are being made. History is a good 
teacher. It is not the only teacher, but it is a good teacher 
in determining how we make decisions going forward.
    So I deeply appreciate the time that you have spent with us 
today, your perspectives. And we offer, too, if you have 
additional comments that you would like to make, the committee 
is ready, willing, and able to accept them.
    And if there are any additional written questions from the 
panel members today--or, excuse me, from our Members to the 
panelists, we will get those to you in short time.
    So, folks, thanks again. And, with that, we will adjourn 
the Oversight and Investigations Subcommittee hearing.
    [Whereupon, at 4:29 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             July 18, 2012

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 18, 2012

=======================================================================

      
                     Statement of Hon. Rob Wittman

      Chairman, House Subcommittee on Oversight and Investigations

                               Hearing on

            Withdrawal from Afghanistan: Historical Lessons

                             July 18, 2012

    Today the Oversight and Investigations subcommittee 
convenes the third in our series of hearings related to the 
Afghan National Security Forces.
    We have assembled a panel of specialists to provide 
testimony about historical examples of indigenous forces 
assuming security responsibility from allied military units.
    In considering the U.S. drawdown in Vietnam, the Soviet 
withdrawal from Afghanistan, and the U.S. redeployment from 
Iraq, the subcommittee will explore lessons applicable to the 
current plans to withdraw combat forces from Afghanistan and 
place the Afghan National Security Forces in the lead by 2014.
    We recognize, of course, that past events do not offer 
precise analogies to the current situation. Nonetheless, 
historical experiences can be illuminating when considering 
contemporary policy.
    Our panel today includes:

        <bullet> LDr. Lewis ``Bob'' Sorley, an historian and 
        author of several books, including A Better War: The 
        Unexamined Victories and Final Tragedy of America's 
        Last Years in Vietnam;
        <bullet> LDr. Mark Moyar, also an historian and author 
        of several books, including Triumph Forsaken: The 
        Vietnam War, 1954-1965;
        <bullet> LDr. Joseph Collins, Professor of National 
        Security Strategy, National War College; and
        <bullet> LMs. Olga Oliker, Director, International and 
        Security Policy Department, RAND Corporation.

    Thank you for your participation. We look forward to your 
testimony.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
